No. 20-__
DISH NETWORK L.L.C.,
Petitioner,
v.
UNITED STATES, AND THE STATES OF CALIFORNIA, ILLINOIS, NORTH CAROLINA, AND OHIO,
Respondents.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Petition For A Writ Of Certiorari was
sent via 1st class mail to the U.S. Supreme Court and
service was provided to counsel for the Respondents
as listed below on November 23, 2020.
Via email (consent provided):
Evan Siegel
Office of the Attorney General
Civil Appeals Division
12th Floor
100 W. Randolph Street
State of Illinois Center
Chicago, IL 60601
(312) 814-2568
civilappeals@atg.state.il.us
Erin B. Leahy
Office of the Attorney General
14th Floor
30 E. Broad Street

State Office Tower
Columbus, OH 43215
(614) 752-4730
Erin.Leahy@OhioAttorneyGeneral.gov
Jeffrey R. Loeser
Office of the Attorney General
14th Floor
30 E. Broad Street
State Office Tower
Columbus, OH 43215
(614) 728-1172
jeff.loeser@ohioattorneygeneral.gov
Teresa L. Townsend
Kevin Anderson
Office of the Attorney General
Consumer Protection Division
Room 208
114 W. Edenton Street
Raleigh, NC 27603
(919) 716-6980
ttownsend@ncdoj.gov
KANDER@ncdoj.gov
Jeffrey B. Wall
Malcolm L. Stewart
Department of Justice
Office of the Solicitor General
950 Pennsylvania Ave., NW
Washington, D.C. 20530
SupremeCtBriefs@usdoj.gov
Malcolm.L.Stewart@usdoj.gov

Lindsey Powell
Department of Justice
Civil Division, Appellate Staff
Room 7226
950 Pennsylvania Avenue N.W.
Washington, DC 20530
lindsey.e.powell@usdoj.gov
Via Federal Express:
Vesna Cuk
Office of the Attorney General
Suite 11000
455 Golden Gate Avenue
San Francisco, CA 94102
(415) 703-1604
Jon Worm
Office of the Attorney General
Suite 1800
600 W. Broadway
San Diego, CA 92101
(619) 738-9325
Jinsook Ohta
Office of the Attorney General
Suite 1800
600 W. Broadway
San Diego, CA 92101
(619) 738-9319
/s/ E. Joshua Rosenkranz
Counsel of Record

